               National Archives and Records
               Administration
               Office ofthe Inspector General                                             8601 Adelphi Road, Room 1300
                                                                                     College Park, Maryland 20740-6001




 Date      :   June 19,2008
Reply to
Attn of        Office of Inspector General (OIG)

Subject        Management Letter 0108-01: Historical Records Discarded in Trash

To             Allen Weinstein, Archivist of the United States (N)

The purpose of this Management Letter is to formally advise you that original historical records
continue to find their way into NARA's garbage and are salvaged only when plucked from the
trash by our contract security and custodial staff. The incidents outlined in this memo occurred at
Archives I, but this weakness may not be limited to that facility. This Management Letter has
been drafted to inform you that recent events have reiterated the need for this agency to take
appropriate measures to address this issue.

In September 2005, original Bureau of Indian Affairs records were deliberately disposed of at
Archives 1. After this incident, policy memorandum and guidance were issued, and contract
security officers began checking the trash for original historical documents at Archives 1. Since
then, there have been five incidents reported to the OIG where original historical documents were
discovered either in or on their way into the trash at Archives 1. These are outlined below:

        • 	 In September 2006, a contract security officer discovered ten original Bureau of Indian
            Affairs records in the trash at Archives 1. Our subsequent investigation revealed that the
            documents were accidentally discarded by an employee in the Center for Legislative
            Archives (NWL). NWL management stated they would begin new procedures to cut and
            flatten all boxes and folders.

        • 	 In January 2007, a contract security officer discovered an original Bureau ofIndian
            Affairs record on its way into the dumpster at Archives 1. Our investigation was unable to
            determine who disposed of the document and whether it was thrown in the trash
            accidentally or intentionally. Whereas the container in which the document was found
            had been disposed of, this incident could not be thoroughly investigated. Security
            amended post orders to state that containers will be safeguarded along with the
            document(s) and the scene of disposal. Current employees in Holdings Management
            Staff (NWCM) said that no one instructed them to check each other's boxes before
            discarding. NWCM management advised that staff was cutting the tops off Hollinger
            boxes to ensure no documents were being sent to the trash until a staff member's hand
            was injured during this process. Because of that incident, the process of cutting off box
            tops was stopped.



                  The NARA Office ofInspector General web site can be found at http://www.archives.gov/oig/
   • 	 In May 2007, a contract security officer discovered a record copy of a historical Supreme
       Court document on its way to the dumpster at Archives I. Our investigation determined
       the file was processed by the Old Military and Civilian Records LICON (NWCTB).
       An employee responsible for processing these holdings took the blame, saying it was an
       accident. NWCTB does not have a process or policy for double checking boxes destined
       for the trash.

   • 	 In April 2008, a contract custodial employee found an original historical record of the
       "War Relocation Authority" on its way into the dumpster at Archives I. It is believed this
       was not done intentionally by the NWCM processing staff. However, no written
       procedures for NWC staff had been implemented since the prior incident. Further, even
       though new procedures had been implemented for the guards (i.e., the post orders were
       changed to instruct guards not to throwaway boxes), the guard had not been properly
       trained on them as the guard on the scene was not even aware of these instructions.

   • 	 In April 2008, an original compiled service record being re-boxed by the Forms
       Reference Section (NWCTIFB) was found in the trash at Archives I. A staff member
       accepted responsibility for not checking the trash. The Textual Archives Services
       Division stated that an unwritten process for discarding archival trash exists at Archives I.
       This process involves first emptying old Hollinger boxes and tearing the tops off. Next,
       one staff member checks the "trash" of another staff member to ensure no archival
       records are sent for destruction. The trash box where the old boxes are discarded is then
       sealed with yellow tape, the tape is initialed, "TRASH" is written on the outside of the
       box, and the trash box is put in the hall to be sent to the dumpster. However, this
       unwritten process was not followed in this instance. It has been reported to OIG that the
       staff no longer checks each others "trash" and most have stopped removing the tops from
       the Hollinger boxes.

This office has not inquired at NARA's Regional Facilities nor the Presidential Libraries to
determine if they have systems in place to prevent the unintentional disposal of historical records.
While Archives I has contract guards checking the trash there, no such function exists at Archives
II, nor is it apparent that processing and holdings maintenance units at Archives II are double
checking their work to ensure original records are not inadvertently disposed of. It is our
understanding that other custodial units within the NARA universe do not have such protocols.

The above-referenced incidents are only those of which the OIG has been notified. To the OIG,
these incidents represent a potentially damaging trend to NARA and its holdings requiring
attention. Furthermore, the risk of premature disposal of records may not be limited to Archives
I. Thus, we believe that an agency-wide approach is required to mitigate the threat to NARA
holdings. Please advise me within 30 days whether you concur with this interpretation, and if so,
what action has been or will be taken.

Should you have any questions after you have had an opportunity to review this management
letter, please e-mail me or Ross Weiland, or call us at (301) 837-3000.




          The NARA Office ofInspector General web site can be found at http://www.archives.gov/oig/
